No. 19-897
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MATTHEW T. ALBENCE, ET AL., PETITIONERS
v.
MARIA ANGELICA GUZMAN CHAVEZ, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE PETITIONERS, via email and first-class mail, postage prepaid, this 14th
day of August, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 10,147
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
August 14, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 14, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0897
ALBENCE, MATTHEW T., ACTING DIR. OF US
IMMIGRATION & CUSTOMS ENFORCEMENT, ET
AL.
MARIA ANGELICA GUZMAN CHAVEZ, ET AL.
PAUL WHITFIELD HUGHES, III
MCDERMOTT, WILL & EMERY, LLP
500 N. CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8981
PHUGHES@MWE.COM
SIMON YEHUDA SANDOVAL-MOSHENBERG
LEGAL AID JUSTICE CENTER
6066 LEESBURG PIKE
SUITE 520
FALLS CHURCH, VA 22041
703-720-5605
SIMON@JUSTICE4ALL.ORG

VIA EMAIL

